C'OCKLE
2311 Douglas Street CA :
Omaha, Nebraska 68102-1214 Legal B eae

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-511

FACEBOOK, INC., PETITIONER
v.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

NOAH DUGUID, INDIVIDUALLY AND ON BEHALF OF

HIMSELF AND ALL OTHERS SIMILARLY SITUATED,

AND UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RETAIL
LITIGATION CENTER, INC., NATIONAL RETAIL FEDERATION, AND RESTAURANT LAW
CENTER AS AMICI CURIAE SUPPORTING PETITIONER in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 7025 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this | Ith day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

pense | Kerce. Q.tloo Quduneh Ohl

My Comm. Exp. September 5, 2023

 

Notary Public

Affiant

39986
